             United States Department of the Interior
                             Office of Inspector General
                                  Washington, D.C. 20240



                                                                      December 30, 2003

Memorandum

To:        Director, Bureau of Land Management

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Management Issues Identified During the Audit of the Bureau of Land
           Management’s Fiscal Year 2002 Financial Statements
           (Report No. C-IN-BLM-0021-2004)

        We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the Bureau of Land Management’s (BLM) financial statements
as of September 30, 2003 and for the year then ended. In conjunction with its audit,
KPMG noted certain matters involving internal control and other operational matters that
should be brought to management’s attention. These matters, which are discussed in the
attached letter, are in addition to those reported in KPMG’s audit report on BLM’s
financial statements (Report No. C-IN-BLM-0076-2003) and do not constitute reportable
conditions as defined by the American Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.A.
App. 3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report.

Attachment



cc:     Assistant Secretary for Land and Minerals Management
        Chief Financial Officer, Bureau of Land Management
        Director, Office of Financial Management
        Director, National Business Center, Bureau of Land Management
        Audit Liaison Officer, Land and Minerals Management
        Audit Liaison Officer, Bureau of Land Management
        Focus Leader for Management Control and Audit Followup,
        Office of Financial Management
               Suite 2700
               707 Seventeenth Street
               Denver, CO 80202




October 31, 2003


The Director of the Bureau of Land Management and the
 Inspector General of the U.S. Department of the Interior:

We have audited the financial statements of the Bureau of Land Management (BLM) as of and for the year
ended September 30, 2003, and have issued our report thereon, dated October 31, 2003. In planning and
performing our audit of the financial statements, we considered internal control in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements. An audit does
not include examining the effectiveness of internal control and does not provide assurance on internal
control. The maintenance of adequate internal control designed to fulfill control objectives is the
responsibility of management. Because of inherent limitations in internal control, errors or fraud may
nevertheless occur and not be detected. Also, controls found to be functioning at a point in time may later
be found deficient because of the performance of those responsible for applying them, and there can be no
assurance that controls currently in existence will prove to be adequate in the future as changes take place
in the organization. We have not considered internal control since the date of our report.

During our audit, we noted certain matters involving internal control and its operation that we consider to
be reportable conditions under standards established by the American Institute of Certified Public
Accountants. Reportable conditions are matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control over financial reporting that, in our judgment, could
adversely affect the BLM’s ability to record, process, summarize, and report financial data consistent with
the assertions by management in the financial statements. Our consideration of internal control would not
necessarily disclose all matters in internal control that might be reportable conditions. These matters have
been reported to management in our report on the financial statements of the BLM as of and for the year
ended September 30, 2003, dated October 31, 2003. In that report, we identified the following matters as
reportable conditions:

•   Security and Internal Control Over Information Technology Systems

•   Accounting for Intra-departmental Transactions

•   Internal Control Over Charge Cards

•   Timely Deobligation of Undelivered Orders

•   Accounting for Property

•   Reporting of Environmental Liabilities

In addition to the above, our limited procedures over deferred maintenance identified a weakness in the
reporting of deferred maintenance amounts as required supplementary information to the financial
statements. This matter has been reported to management in our report on the financial statements of the
BLM as of and for the year ended September 30, 2003, dated October 31, 2003.

                   KPMG, LLP. KPMG, LLP a U.S. limited liability partnership, is
                   a member of KPMG International, a Swiss association.=
The Director of the Bureau of Land Management and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 2


During our audit, we also noted certain other matters involving internal control and other operational
matters that are not considered to be reportable conditions. We would like to bring these matters to your
attention. These comments and recommendations, all of which have been discussed with the appropriate
members of management, are intended to improve internal control or result in other operating efficiencies
and are summarized below.

In addition to our 2003 comments and recommendations, we have reported the status of prior year
management letter comments. Their current status is addressed in the Progress on Prior Year Management
Letter Comments section of this letter.

Fund Balance With Treasury Discrepancy

Generally accepted accounting principles for federal entities require them to explain discrepancies in fund
balance with Treasury between the entity’s general ledger accounts and amounts reported by the U.S.
Treasury Department. Discrepancies due to time lags are to be reconciled and discrepancies due to error are
to be corrected when financial reports are prepared.

Our audit found, consistent with the prior year audit, that the Treasury Department is reporting a negative
cash balance of approximately $7.9 million in the BLM’s Special Acquisition For Lands & Minerals
account. The BLM has not included these amounts in its general ledger or its financial statements, but does
include them in its reporting to the Treasury Department.

The BLM believes the cash balance stems from transactions in the mid 1980s. At that time, the BLM
disbursed more money to federal agencies and states than it collected from land leases. The difference
between collections and disbursements was the result of monetary credits issued by the BLM to lessors.
The BLM believes its general ledger is correct as of September 30, 2003, and it is not liable to the Treasury
Department for the $7.9 million. The BLM asserts the negative cash balance is an issue that needs to be
corrected by the Treasury Department but has agreed, for tracking purposes, to continue to report the
amount in reports to the Treasury Department.

This issue is a repeat comment from the prior year. During the current year, the BLM has contacted the
Treasury Department asking them for assistance in clearing the negative $7.9 million from the Special
Acquisition For Lands & Minerals account. In addition, they have been working with the Department of
the Interior’s Budget Office who has asked both the Treasury Department and the Office of Management
and Budget for assistance in resolving the issue. However, no progress has been made towards clearing the
negative balance.

If the resolution of the above discrepancy does not favor the BLM, then fund balance with Treasury, as
reported in the BLM’s financial statements, is overstated by $7.9 million. Consequently, the BLM may
need to decrease its fund balance with Treasury to agree with the Treasury Department balance.

Recommendation

The BLM should continue to proactively contact the Treasury Department and the Office of Management
and Budget and collaborate with them in researching and resolving the $7.9 million negative balance
reported by the Treasury Department in the BLM’s Special Acquisition For Lands & Minerals account.
The BLM should formally provide the Treasury Department with a suggested solution and supporting
The Director of the Bureau of Land Management and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 3


documentation, if any, in order to expedite the resolution of the negative balance. Resolution of the
negative balance should result in either the discontinuance of the BLM reporting such amount to the
Treasury Department or the BLM including the amount in its general ledger and financial statements.

Museum Collections

Over the past 100 years, the BLM estimates millions of museum objects have been collected from BLM
managed land. Objects include items that are from past human life and activities that are significant to
American history, architecture, archaeology, engineering, and culture, and that contribute to the
understanding of the historical and cultural foundations of the United States. The BLM believes most of
these objects (approximately 98 percent of the total museum objects collected from BLM managed land)
have been transported to hundreds of nonfederal facilities such as universities, museums, and historical
societies. However, the BLM is unsure of the exact number of objects housed in nonfederal facilities
because, throughout its history, it has not had a formal tracking process to identify individual objects taken
from BLM lands. In addition to nonfederal facilities, the BLM maintains three federal facilities that house
approximately 3.7 million museum objects.

To date, through the use of surveys and research, the BLM has identified approximately 165 nonfederal
facilities in 33 states and Canada where objects originating from the public lands reside. However, the
surveys, because of the immense volume of items taken off of the public land, the time period it has
occurred over, and limited cooperation and practices of the nonfederal facilities, may not be complete and
cannot identify specific items taken off public land. For example, nonfederal facilities may, or may not,
respond to BLM questionnaires, and the lack of a response does not mean the nonfederal facility does not
house objects collected from BLM lands. The BLM recently sent questionnaires to its identified nonfederal
facilities (approximately 165 facilities). A total of 95 nonfederal facilities responded in some way, and of
those only 53 responded to questions regarding museum object inventories. Their responses in general
were that object-by-object inventories are not performed given the costs involved, the lack of value added
from an inventory, and potential for damaging objects. Further, it is questionable, even if object inventories
were performed, whether these facilities could determine the original source of the objects (i.e., the object
originated from BLM lands, private lands, or some other source).

It is unclear whether the BLM is meeting the intent of federal accounting standards in its reporting of
museum collection information, as found in its annual report. Federal accounting standards define museum
collections as heritage asset property. Such property is to be reported as part of required supplementary
stewardship information to the annual report. The standards require that heritage assets be quantified in
terms of physical units, the number of physical units added and withdrawn from the records during the
year, and a description of the condition of the heritage assets. In attempting to meet the requirements of
federal accounting standards, the BLM defines a “physical unit” for museum collection purposes as either a
BLM facility or a nonfederal facility. It is unclear if a facility housing museum objects is a “physical unit.”
Further, the BLM assesses the condition of museum objects found in its facilities as good, but
acknowledges the amount of museum objects and the condition of those objects located in nonfederal
facilities, in the strictest sense, is unknown.

It also unclear whether BLM museum objects located in nonfederal facilities even qualify as property of
the BLM for financial reporting purposes. As defined by generally accepted accounting principles,
property is typically items that an entity has the rights to and is available for use by the entity. However,
The Director of the Bureau of Land Management and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 4


the BLM does not intend to recover museum objects from the nonfederal facilities, and the BLM does not
have physical control or use of these items. Taking this into consideration, it may be reasonable to assume
that museum objects located in nonfederal facilities do not meet the definition of BLM property for
financial accounting purposes, and thus, those items located in nonfederal facilities should not be included
as heritage assets in the BLM’s annual report.

The uncertainty surrounding museum collection reporting in the annual report has resulted in numerous
employee hours debating the issue and devising plans to address the reporting requirements, while
realizing it is virtually impossible to identify the millions of individual museum items taken from public
lands over the last 100 years.

The uncertainty has also resulted in reporting differences between the BLM and Department of the Interior
(Interior). As mentioned above, the BLM reports museum collections as the number of federal and
nonfederal facilities, and does not have information on the number or condition of items housed in
nonfederal facilities. However, Interior reports in its annual report that the BLM has approximately 23.8
million museum items, which includes items in nonfederal facilities. Interior claims to have obtained the
amounts from the BLM; conversely, the BLM has documented to Interior that it cannot support the 23.8
million museum items.

Further, the uncertainty of how to account for museum objects, unless resolved over the next two years,
may ultimately result in a qualified audit opinion at the BLM. Proposed Statement of Federal Financial
Accounting Standards, Heritage Assets and Stewardship Land: Reclassification from Required
Supplementary Stewardship Information, will require that heritage assets, including museum collections,
be disclosed as basic information to the notes of the financial statements. It requires that heritage assets be
quantified in terms of “physical units” and that a concise description of each major category of heritage
asset be included in the disclosure. As a component of the notes to the financial statements, museum
collection information will endure increased audit scrutiny. This increased scrutiny, combined with
uncertainty surrounding the accounting, may result in a qualification in the reporting of museum
collections.

Recommendation

The BLM should consult the Federal Financial Accounting Standards Advisory Board to obtain
clarification whether museum items permanently housed in nonfederal facilities are considered heritage
assets of the BLM for financial reporting purposes. If such items are heritage assets for financial reporting
purposes, then the BLM should obtain clarification of what constitutes a “physical unit” for reporting
museum collections. That is, does a “physical unit” constitute an individual nonfederal facility, or
individual collection item, or something else?
The Director of the Bureau of Land Management and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 5


Progress on Prior Year Management Letter Comments

The following is a summary of the implementation status of prior year management letter comments.

                    Comment                                               Status

Fund Balance With Treasury Discrepancy – Not Corrected. This comment has been repeated
The BLM needed to collaborate with the Treasury in this letter.
Department to resolve an outstanding discrepancy.



Reconciliation and Timely Removal of Amounts Corrected. Our fiscal year 2003 audit did not
From Suspense Accounts – The BLM had not identify amounts in the suspense liability accounts
removed in a timely manner certain amounts from that needed to be removed at year-end.
its suspense liability accounts.



Improvements in Deferred Maintenance                 Not Corrected. This condition, along with other
Reporting – The BLM needed to review and             deferred maintenance reporting issues, has been
update deferred maintenance amounts reported in      included in our report on the financial statements
the annual report.                                   of the BLM as of and for the year ended
                                                     September 30, 2003, dated October 31, 2003.



Improvements in Supporting Documentation Corrected. Our fiscal year 2003 audit did not
for Financial Reporting – The BLM needed to identify instances of a lack of supporting
improve supporting documentation over certain documentation for obligations or journal entries.
obligations and year-end adjusting journal entries.



Museum Collections – For financial reporting Not Corrected. This comment has been repeated
purposes, the BLM believes it has materially in this letter.
complied with Statement of Federal Financial
Accounting Standards No. 8, Supplementary
Stewardship Reporting. However, the BLM had
not implemented a process to conduct a complete
inventory of museum collections as required by
the Department of Interior’s cataloging and
inventory standards.
The Director of the Bureau of Land Management and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 6


                                                 *******

Our audit procedures are designed to enable us to form an opinion on the financial statements, and
therefore may not bring to light all weaknesses in policies or procedures that may exist. We aim, however,
to use our knowledge of the BLM’s organization gained during our work to make comments and
suggestions that we hope will be useful to you.

We will be pleased to discuss with you in more detail any of the matters referred to in this letter.

This letter is intended for the information and use of the BLM management, the Department of the
Interior’s management, the Department of the Interior’s Office of Inspector General, Office of
Management and Budget, General Accounting Office, and the U.S. Congress, and is not intended to be
used by anyone other than these specified parties.

Very truly yours,
